No.
October Term, 2021
IN THE
Supreme Court of the United States

ADOLPHUS SYMONETTE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,

PETITIONER'S MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS
Petitioner, through undersigned counsel, asks for leave from this Court to
proceed rn forma pauperis in the present case and in support thereof states the
following:
Petitioner has been continuously incarcerated since November 30, 2010
and is now serving a life sentence in the Federal Bureau of Prisons.
Petitioner is financially unable to pay for the costs of this case including
hiring an attorney to represent him before this Court.
On February 2, 2021, the Eleventh Circuit Court of Appeals appointed

1

undersigned counsel to represent petitioner in this case pursuant to the Criminal
Justice Act, codified at 18 U.S.C. § 3006A. A copy of the letter appointing
undersigned counsel is attached to this motion.
WHEREFORE, petitioner through undersigned counsel, asks for leave from
this Court to proceed in forma pauperis in the present case.
CERTIFICATE OF SERVICE

I HEREBY CERTIFY that I have been appointed to represent petitioner for
this appeal pursuant to the Criminal Justice Act of 1964, codified at 18 U.S.C. §
3006A. I also certify that a copy of the foregoing motion has been electronically
filed with the United States Supreme Court and emailed to all parties on September
12, 2021. Respondent's copies were emailed to:
Brian H. Fletcher
Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania. Ave., N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov

Assistant U.S. Attorney Randall Katz.
U.S. Department of Justice
500 E. Broward Blvd., Suite 700
Ft. Lauderdale, Florida .33394
randy.katz@usdoj.gov

Ronald S. Chapman, P.A.
400 Clematis Street, Suite 206
West Palm Beach, FL 33401
Tel. (561) 832-4348
Fax (561) 832-4346
ronchapman@justiceflorida.com
Florida Bar No. 0898139
Attorney for Petitioner

OSCA11 Case: 21-10287 Date Filed: 02/02/2021 Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.ca 1 I .USCOUnS.ROr

David 3. Smith
Clerk of Court

February 02, .2021
Ronald Scott Chapman
Ronald S. Chapman, PA
400 CLEMATIS ST STE 206
WEST PALM BEACH, FL 33401
Appeal Number: 21-10287-A
Case Style: Adolphus Symonette v. USA
District Court Docket No: 0:20-cv-60773-DMM
Secondary Case Number: 0:10-cr-60292-DMM-1
Party To Be Represented: ADOLPHUS SYMONETTE
Dear Counsel:
We are pleased to advise that you have been appointed to represent on appeal the indigent
litigant named above. This work is comparable to work performed pro bono publico. The fee
you will receive likely will be less than your customary one due to limitations on the hourly rate
of compensation contained in the Criminal Justice Act (18 U.S.C. § 3006A), and consideration
of the factors contained in Addendum Four § (g)(1) of the Eleventh Circuit Rules.
Supporting documentation and a link to the CJA eVoucher application are available on the
internet at httn://www.ca 1 Luscourts.gov/attorney-info/criminal-iustice-act. For questions
concerning CJA eVoucher please contact our CJA Team by email at
cja_evoucher®call.uscourts.gov or phone 404-335-6167. For all other questions, please call
the "Reply To" number shown below.
Every motion, petition, brief, answer, response and reply filed must contain a Certificate of
Interested Persons and Corporate Disclosure Statement (CIP). Appellants/Petitioners must file a
CIP within 14 days after the date the case or appeal is docketed in this court;
Appellees/Respondents/Intervenors/Other Parties must file a CIP within 28 days after the case
or appeal is docketed in this court, regardless of whether appellants/petitioners have filed a CIP.
See FRAP 26.1 and 11th Cir. R. 26.1-1.
On the same day a party or amicus curiae first files its paper or e-filed CIP, that filer must also
complete the court's web-based CIP at the Web-Based CIP link on the court's website. Pro se

USCA11 Case: 21-10287 Date Filed: 02/02/2021 Page: 2 of 2

filers (except attorneys appearing in particular cases as pro se parties) are not required or
authorized to complete the web-based CIP.
Your claim for compensation under the Act should be submitted within 60 days after issuance
of mandate or filing of a certiorari petition. We request that you enclose with your completed
CJA Voucher one additional copy of each brief, petition for rehearing, and certiorari petition
which you have filed. Please ensure that your voucher includes a detailed description of the
work you performed. Thank you for accepting this appointment under the Criminal Justice Act.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Denise E. O'Guin, A
Phone #: (404) 335-6188
CM-1 Appointment of Counsel Letter

